No. 19-494

 

 

IN THE

Supreme Court of the United States

DAVID ZACHERY MORGAN,
Petitioner,

Vv.

STATE OF WASHINGTON,
Respondent.

On Petition for a Writ of Certiorari to the
Supreme Court of Washington

REPLY BRIEF IN SUPPORT OF CERTIORARI

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
2,998 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on January 21, 2020.

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
